BECKER GALLAGHER
Briefs

and

OoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief of Amici Curiae
Samuel L. Bray, Michael W. McConnell and Kevin C.
Walsh in Support of Petitioners in No. 19-840 in 19840 California, et al. v. Texas, et al. and 19-1019 Texas,
et al. v. California, et al., were sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day Service and e-mail to the following
parties listed below, this 13th day of May, 2020:
Samuel Passchier Siegel
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov

Counsel for Petitioners
California, et al.
Noel J. Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for United States, et al.

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

Kyle Douglas Hawkins
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700
Counsel for Respondents
State of Texas, et al.
Robert Earl Henneke
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
r henneke@texaspolicy.com
Counsel for Respondents
Neill Hurley and John Nantz
Douglas Neal Letter
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov
Counsel for United States House of Representatives
Raffi Melkonian
Counsel of Record
Wright Close & Barger, LLP
One Riverway, Suite 2200
Houston, Texas 77056
(713) 572-4321
melkonian@wrightclose barger .com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 13, 2020.

DonnaJ. Wo
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

